No. 20-962
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES CITIZENSHIP AND IMMIGRATION SERVICES, ET AL., PETITIONERS
v.
CITY AND COUNTY OF SAN FRANCISCO, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the JOINT
STIPULATION TO DISMISS, via email and first-class mail, postage prepaid, this 9th day of March, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

March 9, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case Management Specialist,
Office of the Solicitor General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms.
Goodwin’s phone number is (202) 514-2217 or 2218.

20-0962
UNITED STATES CITIZENSHIP AND IMMIGRATION
SERVICES, ET AL.
CITY AND COUNTY OF SAN FRANCISCO,
CALIFORNIA, ET AL.

LOREN L. ALIKHAN
OFFICE OF THE ATTORENY GENERAL FOR
DC
400 6TH STREET, NW
SUITE 8100
WASHINGTON , DC 20001
202-727-6287
LOREN.ALIKHAN@DC.GOV
NICOLE DEFEVER
OREGON DEPARTMENT OF JUSTICE
1162 COURT STREET, NW
SALEM, OR 97301
APPELLATESERVICE@DOJ.STATE.OR.US
JEFFREY PAUL DUNLAP
OFFICE OF THE ATTORNEY GENERAL
200 ST. PAUL PLACE
FLOOR 20
BALTIMORE, MD 21202
913-449-5049
JDUNLAP@OAF.STATE.MD.US
HANNAH LUKE EDWARDS
COUNTY OF SANTA CLARA
OFFICE OF THE COUNTY COUNSEL
70 WEST HEDDING STREET
EAST WING, 9TH FLOOR
SAN JOSE, CA 95110
408-229-6936
LUKE.EDWARDS@CCO.SCCGOV.ORG

SARA J. EISENBERG
SAN FRANCISCO CITY ATTORNEY'S OFFICE
FOX PLAZA
1390 MARKET STREET
7TH FLOOR
SAN FRANCISCO, CA 94102
415-554-3857
SARA.EISENBERG@SFCITYATTY.ORG
HELEN H. HONG
DEPUTY SOLICITOR GENERAL
600 WEST BROADWAY STREET
STE. 1800
SAN DIEGO, CA 92101
619-738-9693
HELEN.HONG@DOJ.CA.GOV
SARAH A. HUNGER
OFFICE OF THE ATTORNEY GENERAL
100 WEST RANDOLPH STREET
12TH FLOOR
CHICAGO, IL 60601
312-814-5202
SHUNGER@ATG.STATE.IL.US
MICHELLE SHANE KALLEN
OFFICE OF THE ATTORNEY GENERAL
202 NORTH NINTH STREET
RICHMOND, VA 23219
804-786-7704
MKALLEN@OAG.STATE.VA.US
TANIA MAESTAS
DEPUTY ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
PO DRAWER 1508
SANTA FE, NM 87504-1508
TMAESTAS@NMAG.GOV

MELISSA MEDOWAY
OFFICE OF THE NEW ATTORNEY GENERAL DIVISION OF LAW
DEPUTY ATTORNEY GENERAL, SECTION
CHIEF - SPECIAL LITIGATION
HUGHES JUSTICE COMPLEX
25 MARKET STREET, FIRST FLOOR
TRENTON, NJ 08625
609-376-3235
MELISSA.MEDOWAY@LAW.NJOAG.GOV
JILL O'BRIEN
OFFICE OF THE ATTORNEY GENERAL
6 STATE HOUSE STATION
AUGUSTA, ME 04333
JILL.OBRIEN@MAINE.GOV
ANNA RICH
AGCA - OFFICE OF THE ATTORNEY GENERAL
1515 CLAY STREET
OAKLAND, CA 94612
510-879-0296
ANNA.RICH@DOJ.CA.GOV
JEFFREY T. SPRUNG
AGWA - OFFICE OF THE WASHINGTON
ATTORNEY GENERAL (SEATTLE)
800 FIFTH AVENUE
SUITE 2000
SEATTLE, WA 98104-3188
206-326-5492
JEFF.SPRUNG@ATG.WA.GOV
HEIDI PARRY STERN
OFFICE OF THE NEVADA ATTORNEY
GENERAL (LAD VEGAS)
555 EAST WASHINGTON AVENUE
LAS VEGAS, NV 89101
HSTERN@AG.NV.GOV

AIMEE D. THOMSON
PENNNSYLVANIA OFFICE OF THE
ATTORNEY GENERAL
IMPACT IMMIGRATION SECTION
1600 ARCH STREET
SUITE 300
PHILADELPHIA, PA 19103
267-940-6696
ATHOMSON@ATTORNEYGENERAL.GOV

